                   UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL




                                         May 26, 2005


AUDIT CLOSEOUT MEMORANDUM

TO              : 	 Deborah Price
                    Acting Assistant Secretary
                    Office of Legislation and Congressional Affairs (OLCA)


FROM            : 	 Michele Weaver-Dugan, Director /s/
                    Operations Internal Audit Team
                    Office of Inspector General

SUBJECT         :	 Closure of our Audit of Controls Over Purchase Card Use in OLCA
                   Control Number ED-OIG/A19F0011

This memorandum advises you of the results of our audit of Controls over Purchase
Card Use in OLCA. The objectives of our audit were to assess the current effectiveness
of internal control over the purchase card program and the appropriateness of current
purchase card use in OLCA. This audit is part of a review of the purchase card program
being performed Departmentwide.

To accomplish our objectives, we performed a review of internal control applicable to
OLCA’s administration and management of its purchase cards. We reviewed policies
and procedures applicable to the purchase card program, including internal guidelines
developed by OLCA. We conducted interviews with staff in the Office of the Chief
Financial Officer (OCFO) and OLCA to obtain an understanding of the purchase card
program. We evaluated training records for staff participating in the purchase card
program. The scope of our review included purchases made during the period July 1,
2003, through June 30, 2004, by Department cardholders located in Washington, DC. As
part of the Departmentwide transactions selected, we reviewed three purchases made by
one OLCA cardholder, at a total cost of $1,000. This represents 13.6 percent of the total
number and 15.7 percent of the total amount of transactions made by OLCA cardholders
during the period. To test controls and evaluate the appropriateness of purchase card use,
we reviewed supporting documentation provided by OLCA staff for the purchases
selected.



                       400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

        Our mission is to ensure equal access to education and to promote educational excellence
We noted the following issues:

    •	 All three transactions reviewed did not include a receipt, email, or other
       documentation to support the receipt of services required by Department Directive
       OCFO 3-104, “Government-wide Commercial Purchase Card Program.”

    •	 All three transactions reviewed did not include the Purchase Card Approval Form
       required by OLCA internal policy.

    •	 On February 23, 2005, OCFO sent to all cardholders and approving officials a
       detailed list of all unreconciled transactions for the period July 2001 through
       January 2005. This list included 16 OLCA transactions, the oldest of which was
       from October 2001. OLCA staff reported that progress had been made in
       reconciling these transactions.

We suggest that OLCA ensure documentation is maintained to support purchases in
accordance with Department policy and OLCA’s internal guidelines. In addition, we
suggest that OLCA continue to work with OCFO to resolve the unreconciled
transactions.

Our limited review would not necessarily disclose all material weaknesses in the
administration of the purchase card program in OLCA. Accordingly, this memorandum
should not be construed as acceptance or approval of OLCA’s practices and procedures
related to controls over purchase cards. Since the extent of our review in OLCA was
limited to the OLCA transactions included in the Department-wide audit, our results
cannot be projected to the universe of OLCA purchases. We may conduct further
reviews of this area in OLCA at some future date. Our audit was performed in
accordance with generally accepted government auditing standards appropriate to the
scope of the review described above.

We wish to express appreciation for the cooperation and assistance extended by your
staff during the review. Should you have any questions regarding this review, please
contact Nancy Brown, Assistant Director, at (202) 245-6934 or me at (202) 245-6941.
No response to this memorandum is required.

cc: 	   Paula Shipp, Executive Officer
        Linda Wilson, Audit Liaison Officer
        Cynthia Bond-Butler, Audit Liaison Officer, OCFO
